Department of Health and Human Services 

                  OFFICE OF 

             INSPECTOR GENERAL 



       CASE WESTERN RESERVE 

        UNIVERSITY CLAIMED 

       ALLOWABLE EQUIPMENT 

            COSTS UNDER 

       NATIONAL INSTITUTES OF 

          HEALTH GRANTS 

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov. 




                                                 Sheri L. Fulcher

                                            Regional Inspector General 


                                                   September 2012

                                                    A-05-12-00074

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                          Notices 



     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires 

that OIG post its publicly available reports on the OIG Web site. 


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as 

questionable, a recommendation for the disallowance of costs 

incurred or claimed, and any other conclusions and 

recommendations in this report represent the findings and 

opinions of OAS. Authorized officials of the HHS operating 

divisions will make final determination on these matters.

                                             INTRODUCTION 


BACKGROUND

The National Institutes of Health (NIH) is the steward of medical and behavioral research for the
nation. Its mission is science in pursuit of fundamental knowledge about the nature and behavior
of living systems and the application of that knowledge to extend healthy life and reduce the
burdens of illness and disability. Research supported through the issuance of grants and
cooperative agreements enable NIH to fulfill its mission to make medical discoveries that
improve health and save lives.

NIH grants and cooperative agreements are awarded as discretionary grants. NIH has the
authority to determine the recipient of the grant and/or cooperative agreement and the amount
awarded. NIH programs are legislatively authorized by Congress, which also defines the
purpose and policy, authorization of appropriations, allotment of funds, limitation on assistance,
and other things, for the programs. Furthermore, each Institute and Center establishes specific
goals for the unit, grant programs and activities.

Federal Requirements for NIH Grantees

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (formerly Office of Management
and Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by
45 CFR § 74.27.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (NIH Grants Policy Statement). The Grants Policy Statement provides NIH grantees,
in a single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.

Cost principles for Educational Institutions at 2 CFR 220, App. A, § J.18(b)(2) state that
“[c]apital expenditures for special purpose equipment are allowable as direct costs, provided that
items with a unit cost of $5000 or more have the prior approval of the awarding agency.”
Pursuant to the NIH Grants Policy Statement (December 2003)1, in general, the Program
Director/Principal Investigator may make changes in the methodology, approach, or other
aspects of the project objectives. However, the grantee must obtain prior approval from the NIH
awarding Institute or Center for a change in scope. A change in scope is a change in the
direction, aims, objectives, purposes, or type of research training, identified in the approved
project. The grantee must make the initial determination of the significance of a change and
should consult with the Grants Management Office (GMO) as necessary. Pursuant to the NIH
Grants Policy Statement (December 2003), “[a]ctions likely to be considered a change in scope
and, therefore, requiring NIH awarding office prior approval include” significant rebudgeting or

1
 This version of the NIH Grants Policy Statement was effective for all NIH grants and cooperative agreements with
budget periods beginning on or after December 1, 2003 through September 30, 2010.

                                                        1

the purchase of a unit of equipment exceeding $25,000. Significant rebudgeting occurs when
“expenditures in a single direct cost budget category deviate (increase or decrease) from the
categorical commitment level established for the budget period by more than 25 percent of the
total costs awarded.”

Case Western Reserve University’s NIH Funded Equipment

Case Western Reserve University (the grantee) is a private institution founded in 1826. The
grantee made 27 equipment purchases, exceeding $25,000, with NIH funds in the amount of
$1,745,517. The purchase period was January 1, 2011, through December 31, 2011.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether equipment purchases exceeding $25,000 funded through
NIH grants were allowable under the terms and conditions of the grants and applicable Federal
regulations.

Scope

We limited our review to 27 pieces of equipment exceeding $25,000 in cost that were purchased
with NIH grant funds during the period January 1, 2011, through December 31, 2011. The
grantee claimed $1,745,517 for the 27 pieces of equipment. We did not perform an overall
assessment of the grantee’s internal control structure. Rather, we limited our evaluation of the
grantee’s procurement process to obtaining an understanding of internal control as it relates to the
specific objective and scope of the audit.

We performed field work at the grantee’s administrative office in Cleveland, Ohio in August
2012.

Methodology

To accomplish our objective, we:

       requested a listing of equipment purchases for all NIH grants for the audit period;

       summarized equipment purchases that exceeded $25,000;

       interviewed grantee officials;

       determined if the purchase of any particular unit of equipment was split across different
        grants;

       determined whether duplicate purchases of equipment were improperly charged to the
        same grant or different grants;

                                                 2

   	 reviewed the timing of equipment purchases and any unusually large purchases at the end
      of the grant period;

   	 held discussions with university staff to determine whether equipment costs were
      reasonable and whether anyone certified that the equipment was not available prior to the
      purchase;

   	 determined whether competitive bids were obtained when necessary;

   	 determined whether equipment was placed in the inventory records and noted as being
      purchased with Federal funds; and

   	 determined if prior approval was sought from NIH for equipment purchases in excess of
      $25,000 if the equipment was not included in the approved grant award budget.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

The grantee claimed $1,745,517 for equipment exceeding $25,000 in cost that was allowable
under the terms of the grant and applicable Federal regulations.




                                               3

